U.S. Department of                              The Inspector General                  Office of Inspector General
Transportation                                                                         Washington, DC 20590
Office of the Secretary
of Transportation



March 23, 2011


The Honorable Darrell Issa
Chairman
U.S. House Committee on Oversight and Government Reform
United States House of Representatives
Washington, DC 20515

The Honorable John Mica
Chairman
U.S. House Committee on Transportation and Infrastructure
United States House of Representatives
Washington, DC 20515

The Honorable Charles E. Grassley
Ranking Member
U.S. Senate Committee on the Judiciary
United States Senate
Washington, DC 20510


Dear Chairmen Issa and Mica and Ranking Member Grassley:

Thank you for your November 12, 2010, letter requesting that we review the
circumstances surrounding the departure from office of Fred Weiderhold, Amtrak's
former Inspector General. As agreed with your staff, we examined whether Amtrak
violated the Inspector General Act when it did not notify Congress 30 days prior to
Weiderhold's departure; notification is required when an Inspector General is removed or
transferred. This review was within our jurisdiction because Amtrak is a U.S.
Department of Transportation grant recipient. 1


1
  Inspector General Act of 1978, 5 U.S.C. App 3 § 4(a)(5): "It shall be the duty and responsibility of each Inspector
General . . . to keep . . . the Congress fully and currently informed . . . concerning fraud and other serious problems,
abuses, and deficiencies relating to the administration of programs and operations administered or financed by such
establishment, to recommend corrective action concerning such problems, abuses, and deficiencies, and to report on
                                                                                                              2


If "removal" is defined using Federal Civil Service employment law—the approach
recently taken by the Court of Appeals for the D.C. Circuit 2—Weiderhold's departure
would not constitute a removal unless Amtrak's actions were sufficiently coercive to
render Weiderhold's decision to leave office involuntary. In our review, we did not find
this level of coercion. We note, however, that basing an analysis on Federal employment
law may frustrate the intended purpose of the 30-day notice requirement to allow
Congress to inquire into whether an Inspector General is departing for legitimate reasons.
Further, although Amtrak may not have been required to send notice of Weiderhold's
departure, the Board may not have given adequate consideration to Congress' role as a
stakeholder in matters involving Inspectors General.

To conduct our review, we examined more than 6,700 pages of documents and
interviewed eight individuals cognizant of the circumstances surrounding Weiderhold's
departure: Fred Weiderhold, former Amtrak Inspector General; Thomas C. Carper,
Chairman of the Board; Donna McLean, Vice Chairman; Nancy A. Naples, Board
member; Joseph H. Boardman, Amtrak President and Chief Executive Officer; Eleanor
D. Acheson, Vice President, General Counsel and Corporate Secretary; Joe McHugh,
Vice President, Government Affairs and Corporate Communications; and J. Steven
Patterson, Partner, Hunton & Williams, retained as counsel to Amtrak's Board.


BACKGROUND

Amtrak is a designated Federal entity (DFE) and is, therefore, required under the
Inspector General Act to establish and maintain an Office of Inspector General (OIG). 3
At the time of Weiderhold's departure, Amtrak's Chairman was the head of the entity and
had the authority to hire and remove Amtrak's Inspector General. 4

Prior to 2008, the Inspector General Act required the head of a DFE to “promptly
communicate in writing the reasons for any such removal or transfer to both Houses of
the Congress.” 5 In 2008, Congress determined it was necessary to strengthen the
independence of the various Offices of Inspector General and passed the Inspector
General Reform Act of 2008, 6 which included a new, more detailed, provision:

        If an Inspector General is removed from office or is transferred to another
        position or location within a designated Federal entity, the head of the
        designated Federal entity shall communicate in writing the reasons for any
the progress made in implementing such corrective action." Amtrak received $1,488,000,000 in Federal funds in FY
2009; $1,555,000,000 in FY 2010; and $2,203,000,000 in FY 2011.
2
  Walpin v. Corp. for Nat'l & Cmty. Servs., 630 F.3d 184 (D.C. Cir. 2011).
3
  5 U.S.C. App 3 §§ 8G(a)(2), 8G(b).
4
  According to Carper, Amtrak's Board now serves as the head of the entity.
5
   Inspector General Act of 1978, 5 U.S.C. App 3, as amended by the Inspector General Act Amendments of 1988,
Pub. L. No. 100-504, 102 Stat. 2515.
6
   Pub. L. No. 110-409, 122 Stat. 4302.


Control No. 2011-003
                                                                                                                   3


        such removal or transfer to both Houses of Congress, not later than 30 days
        before the removal or transfer. Nothing in this subsection shall prohibit a
        personnel action otherwise authorized by law, other than transfer or
        removal. 7

Senator Joseph Lieberman, Chairman of the Senate Committee on Homeland Security
and Governmental Affairs 8 and a chief sponsor of the legislation, explained that the 30-
day notice requirement "would give [Congress] time to consider whether the
administration was improperly seeking to displace an Inspector General for political
reasons because the [Inspector General] was, in effect, doing his or her job too well." 9
The 30-day notice requirement, therefore, was intended to protect Congress' established
interest in an effective and independent Inspector General.


FACTS SURROUNDING WEIDERHOLD'S DEPARTURE

In early 2009, there was significant tension in the relationship between Amtrak and its
Office of Inspector General. In February, unbeknownst to the Board, Weiderhold
retained the services of a law firm to "review and analyze several Amtrak policies and
practices relating to oversight of OIG audit, investigations and operations." From
Amtrak's perspective, tensions came to a head that month when Boardman objected to
Amtrak OIG's role with respect to $450 million provided to Amtrak under ARRA 10 for
security funding. 11 Boardman stated this was a "watershed moment" after which he told
the Board "either [Weiderhold] goes or I go."

The Board's initial response to Boardman's concerns was to speak to the Inspector
General of the Department of Transportation (DOT) and the Chair of the Council of the
Inspectors General on Integrity and Efficiency (CIGIE). The Board's goal was for one of
them to mediate the disagreements between Amtrak and its Inspector General. Board
members told us that they concluded that neither the DOT Inspector General nor CIGIE
would be willing to assume that role. Subsequently, the Board decided to pursue the
possible separation of Weiderhold. They advised us that they decided not to involve
Amtrak management officials because they did not want the issue to distract the
company. As a result, on April 1, 2009, the Board retained Patterson to advise them
concerning the potential separation of Weiderhold.




7
   5 U.S.C. App 3 § 8G(e).
8
   This committee has jurisdictional responsibility over the Inspector General Act.
9
   154 CONG. REC. S10,055 (2008).
10
   The American Recovery and Reinvestment Act of 2009, Pub. L. 111-5, 123 Stat. 115.
11
   According to Boardman, Amtrak OIG did not sufficiently advise Amtrak of its efforts with respect to obtaining
the funds and sought to manage how the funds were spent.


Control No. 2011-003
                                                                                                               4


The Board, with advice from Patterson, decided to allow Weiderhold to choose between
accepting a separation agreement, in which he would resign as Inspector General and
receive a severance package, or having a 30-day notice letter sent to Congress. Relying
on Patterson's advice, the Board believed that presenting Weiderhold with these options
did not trigger the 30-day notice requirement. Patterson advised that there was no need to
send the letter unless Weiderhold chose not to accept the separation agreement. Patterson
based his conclusion on a plain reading of the statute and discussions with his team at
Hunton & Williams, which included an employment attorney.

Prior to meeting with Weiderhold, the Board considered contacting key stakeholders in
Congress to let them know "that the Board is going to have a heart to heart discussion
with our [Inspector General],"which will "cover some practices that the [Inspector
General] has been engaging in that the Board is dissatisfied with." 12 The Board decided
not to reach out to Congress until after Weiderhold was provided the opportunity to
choose between the separation agreement and removal. The Board believed that if
Weiderhold decided to accept the separation agreement, a prior disclosure that it was
considering removing him would unnecessarily embarrass him, affect his reputation, and
negatively impact his potential for future employment.

In anticipation of the Board's meeting with Weiderhold, Patterson prepared notebooks for
the Board members, which included talking points for the meeting, several documents
related to the separation agreement, and a draft 30-day notice letter. Patterson also
prepared a notebook for Weiderhold, which included a summary of the terms of proposed
separation, a summary of payout elements, the separation agreement, and a resignation
letter.

On Wednesday, June 17, 2009, the first day of a scheduled Board meeting, Boardman,
Carper, McLean, Naples, and Patterson met at 3:20 p.m. in executive session with
Weiderhold. Weiderhold stated that as soon as he saw Patterson, he knew this was an
"exit meeting" because the Board had previously used Patterson to remove Amtrak
executives.

As planned, Carper began to read the prepared talking points contained in the Board
members' notebooks. After Carper read the first two or three introductory talking points,
and before he could explain that the Board had prepared a 30-day notice letter,
Weiderhold interrupted. 13 Weiderhold stated to us that he spoke for several minutes,
advising that Amtrak had serious problems that needed to be addressed regardless of
whether or not he served as Inspector General. The others present at the executive
session could not recall specifically what Weiderhold said during the meeting, but do


12
  Talking points included in Amtrak Board Members' executive session binder.
13
  None of the Board members recall exactly how many of the talking points Carper read, but the consensus was that
Carper was interrupted early on when he was thanking Weiderhold for his years of service to Amtrak.


Control No. 2011-003
                                                                                                              5


recall Weiderhold stating that he understood what was happening, wished to retire, and
served at the pleasure of the Chairman.

After Weiderhold finished speaking, he shook hands with the Board members and
reiterated his intent to exercise his retirement options. Boardman wanted to ensure that
Weiderhold understood what was happening, and informed Weiderhold that the Board
was prepared to send a 30-day notice letter to Congress if he chose not to accept the
separation agreement. 14

Following the meeting, Weiderhold had several discussions with Patterson, during which
they discussed the separation agreement and press release. Weiderhold suggested a few
non-substantive changes, which Patterson made.

On June 18, 2009, Weiderhold signed the separation agreement and faxed it to Patterson.
At 2:50 p.m. the same day, the Executive Committee of the Board met again in executive
session and adopted a resolution accepting Weiderhold's resignation and approving the
separation agreement. Amtrak also issued its prepared press release announcing
Weiderhold's retirement. Because Weiderhold ultimately agreed to the separation
agreement, the Amtrak Board did not send a 30-day notice letter to Congress.


ANALYSIS OF THE FACTS

Under the Inspector General Act, the head of a DFE must notify both Houses of Congress
in writing at least 30 days before removing or transferring the Inspector General. 15 It is
undisputed that no notice was provided to Congress prior to the Board's June 17, 2009,
meeting with Weiderhold; therefore, whether the Inspector General Act was violated
turns on whether the Board's actions with respect to Weiderhold constituted a "removal"
or "transfer."

Weiderhold's departure was clearly not a transfer. Accordingly, our review focused on
whether his departure constituted a removal. The term "removal" is not defined in the
statute or legislative history. It is, however, a term commonly used and analyzed in
Federal Civil Service employment law.

There are significant public policy arguments against using a Federal employment law
definition of removal in interpreting the Inspector General Act. Federal employment law
is concerned with balancing the rights of employees and agencies, while the Inspector


14
   According to McLean and Patterson, as he was leaving Weiderhold stated something to the effect of "I only ask
that you let me retire," which Boardman misheard as "I only hope that you'll let me reach higher." McLean and
Patterson state that this misunderstanding prompted Boardman to respond that they were prepared to send a 30-day
notice letter.
15
   5 U.S.C. App 3 § 8G(e).


Control No. 2011-003
                                                                                                                     6


General Act is aimed at protecting Congressional prerogatives. However, the only
Federal appellate court opinion to analyze the 30-day notice requirement analyzes the
term "removal" using Federal Civil Service employment law. 16

In Walpin v. Corporation for National and Community Service, Gerald Walpin, former
Inspector General for the Corporation for National and Community Services (CNCS),
argued that the President violated the Inspector General Reform Act when he did not send
notice to Congress 30 days before he was put on paid administrative leave. 17 Walpin
sought a writ of mandamus ordering CNCS to reinstate him as Inspector General. The
District Court dismissed the Complaint, finding that Walpin failed to satisfy the
requirements for mandamus relief. 18 The D.C. Circuit affirmed the judgment. 19 Both
Courts found that Walpin failed to prove that the President had a clear duty to send a 30-
day notice letter because, at least under a Civil Service employment law analysis, paid
administrative leave is not considered a removal. 20

The question in Walpin, whether paid administrative leave constitutes removal, 21 is very
different from whether offering the choice between resignation or removal constitutes
removal. In addition, that case analyzed the requirements for mandamus relief.
Nonetheless, the U.S. Court of Appeals for the D.C. Circuit, which would be the
controlling Circuit with respect to any questions relating to the Amtrak Inspector General
and most other Inspectors General, used Civil Service employment law to determine what
constitutes a removal for purposes of triggering the 30-day notice requirement.

Under Civil Service employment law, "removal" is defined as the "involuntary separation
of an employee from employment with an agency." 22 Resignations are presumed to be
voluntary, but this may be rebutted if the employee demonstrates the resignation was a
result of coercion by the agency. 23 Typically, this involves misleading the employee or
failing to give adequate time to consider the decision.

Based on our review, the facts of Weiderhold's departure would not appear to be an
involuntary separation under Federal employment law. Weiderhold stated that he


16
   Walpin, 630 F.3d 184 (D.C. Cir. 2010).
17
   718 F. Supp.2d 18 (D.D.C. 2010).
18
   Id. at 19.
19
   630 F.3d at 188.
20
   718 F.Supp.2d at 23-24; 630 F.3d at 187.
21
   Senator Jon Kyl addressed this issue when he introduced his floor amendment adding the sentence "[n]othing in
this subsection shall prohibit a personnel action otherwise authorized by law, other than a transfer or removal." He
explained that his amendment addressed the scenario where an Inspector General is "fired for very good reasons"
and was intended to ensure that the President/head of the entity was not restricted from taking official action against
an Inspector General during the 30-day notice period. See S. 2324, 110th Cong., 154 CONG. REC. 3327 (2008).
22
   5 C.F.R. § 432.103(f); see also 718 F. Supp.2d at 23-24.
23
   Parrott v. Merit Systems Protection Board, 519 F.3d 1328, 1332 (Fed. Cir. 2008), citing Garcia v. Department of
Homeland Security, 437 F.3d 1322, 1328-9 (Fed. Cir. 2006); Statts v. United States Postal Service, 99 F.3d 1120,
1124 (Fed. Cir. 1996).


Control No. 2011-003
                                                                                                                     7


understood the separation agreement, that he had adequate time to consider the
agreement, and that he was neither threatened nor coerced when offered the separation
agreement.

According to Weiderhold, the separation agreement was a standard executive severance
agreement that has been afforded to 90 to 100 percent of former Amtrak executives. He
advised that he had previously seen and was "very familiar" with these types of
agreements. In fact, he stated that prior to becoming the Amtrak Inspector General, he
had written severance agreements, including most of the language in the agreement he
signed. He also acknowledged that he was aware he had a right to seek counsel, but that
he did not believe it was necessary to do so.

On its face, there appears to be some time pressure involved in this matter, as the Board
informed Weiderhold it needed his decision quickly. Although the interviewees'
memories varied, the general consensus was that Weiderhold had 1 or 2 days to make his
decision. Weiderhold advised Patterson almost immediately after the June 17, 2009,
executive session that he was likely to accept the offer. The following day, Weiderhold
signed the agreement.

The separation agreement, however, states that Weiderhold had 21 days to consider the
agreement and 7 days to revoke after signing. When asked if he or anyone at Amtrak
raised this discrepancy, Weiderhold stated the matter was "moot" because he was ready
to sign the agreement. Further, Weiderhold signed a waiver stating that he freely and
voluntarily elected to execute the agreement before the 21-day consideration period.

Weiderhold signed the separation agreement within a day, did not request additional
time, 24 and stated he had received sufficient time to make his decision.

Finally, Weiderhold acknowledged that he understood he had an alternative to
resignation—to allow Amtrak to initiate a removal for cause. That the alternative was
unpleasant or less desirable does not itself make the resulting resignation an involuntary
act within the meaning of Federal employment law. 25




24
   Patterson stated that he would have advised the Amtrak Board to provide additional time if Weiderhold had
requested additional time.
25
   Schultz v. U.S. Navy, 810 F.2d 1133, 1136 (Fed. Cir. 1987) (“[W]here an employee is faced merely with the
unpleasant alternatives of resigning or being subject to removal for cause, such limited choices do not make the
resulting resignation an involuntary act.”); Covington v. Department of Health & Human Services, 750 F.2d 937,
942 (Fed. Cir. 1984) (“The fact that an employee is faced with an inherently unpleasant situation or that his choice is
limited to two unpleasant alternatives does not make an employee's decision any less voluntary.").


Control No. 2011-003
                                                                                                                  8


CONCLUSION

If removal is defined by Federal employment law, as the Court of Appeals decision
suggests, the Amtrak Board's actions in proceeding without sending a 30-day notice letter
did not violate the Inspector General Act. However, relying on Federal employment law
may frustrate the Inspector General Act's intended purpose of allowing Congress the
opportunity to inquire into the underlying reasons behind an Inspector General's
departure.

Amtrak does not appear to have given adequate consideration to Congress' role as a
stakeholder with respect to Inspectors General. 26 Although the Board was aware of
congressional interest and considered consulting with Congress prior to its decision, it
elected not to and treated the decision to replace its Inspector General in the same manner
as any other Amtrak Senior Executive. While Amtrak's concern for Weiderhold's
reputation may be admirable, competing public policy considerations do not appear to
have been given adequate weight.

Inspectors General have reporting responsibilities to both the head of their agency or
DFE and Congress. Congress, therefore, is entitled to be kept well informed of the
departure, or the possibility of departure, of an Inspector General—whether it be for
"doing his or her job too well" or "for very good reasons." To ensure that Congress is
informed of Inspectors General departures, Congress may wish to consider defining
"removal" or expanding those situations in which notice is required.

We appreciate the cooperation of Mr. Weiderhold and Amtrak during this review. If I
can answer any questions or be of further assistance in this matter, please contact me at
(202) 366-1959 or Chief Counsel, Omer G. Poirier, at (202) 366-8820.

Sincerely,




Calvin L. Scovel III
Inspector General




26
   In his September 24, 2010 letter to Congress, Carper acknowledged that his "handling of the IG's resignation and
[his] interface with [Amtrak OIG] prior to [Weiderhold's] departure were less than optimal" and that he "regret[s]
that [he] did not keep [Congress] informed in a more timely manner about [Amtrak's] concerns with prior OIG
management and [his] vision for improving the function of the OIG."


Control No. 2011-003
